OFFICE OF THE INSPECTOR GENERAL

      REPORT TO CONGRESS

    October 1, 2001 – March 31, 2002
Inspector General’s Semiannual Report       National Credit Union Administration




                              THE NCUA MISSION

 OUR CHARGE IS TO FOSTER THE SAFETY AND SOUNDNESS OF FEDERALLY
  INSURED CREDIT UNIONS AND TO BETTER ENABLE THE CREDIT UNION
   COMMUNITY TO EXTEND CREDIT FOR PRODUCTIVE AND PROVIDENT
PURPOSES TO ALL AMERICANS, PARTICULARLY THOSE OF MODEST MEANS.

 WE STRIVE TO ENSURE THAT CREDIT UNIONS ARE ENPOWERED TO MAKE
  THE NECESSARY BUSINESS DECISIONS TO SERVE THE DIVERSE NEEDS OF
THEIR MEMBERS AND POTENTIAL MEMBERS. WE DO THIS BY ESTABLISHING
    A REGULATORY ENVIRONMENT THAT ENCOURAGES INNOVATION,
FLEXIBILITY, AND CONTINUED FOCUS ON ATTRACTING NEW MEMBERS AND
              IMPROVING SERVICE TO EXISTING MEMBERS.



            THE OFFICE OF INSPECTOR GENERAL MISSION

         TO PROMOTE ECONOMY, EFFICIENCY, AND EFFECTIVENESS
                 IN NCUA PROGRAMS AND OPERATIONS,
       AS WELL AS PREVENT AND DETECT FRAUD, WASTE, AND ABUSE.




                                        i
Inspector General’s Semiannual Report               National Credit Union Administration



                     INDEX OF REPORTING REQUIREMENTS

                    OFFICE OF THE INSPECTOR GENERAL
                  NATIONAL CREDIT UNION ADMINISTRATION


 SECTION                       DATA REQUIRED                       RESPONSE      PAGE REF
  4(a)(2)    Review of Legislation and Regulations                                  16
  5(a)(1)    Significant Problems, Abuses, or Deficiencies                           9
             relating to the administration of programs and
             operations disclosed during the reporting period.
  5(a)(3)    Recommendations with Respect to Significant                              9
             Problems, Abuses, or Deficiencies.
             Significant Recommendations Described in Previous
  5(a)(3)    Semiannual Reports on Which Corrective Action Has        13
             Not Been Completed.
  5(a)(4)    Summary of Matters Referred to Prosecution
             Authorities and Prosecutions, Which Have Resulted.      None
             Summary of Each Report to the Board Detailing
  5(a)(5)    Cases Where Access to All Records Was Not               None
             Provided or Where Information Was Refused.
  5(a)(6)    List of Audit Reports Issued During the Reporting                       20
             Period.
  5(a)(7)    Summary of Particularly Significant Reports.                             9
             Statistical Tables on Audit Reports With Questioned                     18
  5(a)(8)    Costs.
  5(a)(9)    Statistical Tables on Audit Reports With                                19
             Recommendations That Funds Be Put To Better Use.
  5(a)(10)   Summary of Each Audit Report Issued Before the          None
             Start of the Reporting Period for Which No
             Management Decision Has Been Made by the End of
             the Reporting Period.
  5(a)(11)   Description and Explanation of Reasons for any          None
             Significant Revised Management Decision Made
             During the Reporting Period.
  5(a)(12)   Information Concerning Significant Management           None
             Decisions With Which the Inspector General is in
             Disagreement.




                                            ii
Inspector General’s Semiannual Report                    National Credit Union Administration


         INSPECTOR GENERAL'S MESSAGE TO THE CONGRESS

During this reporting period, the National Credit Union Administration (NCUA) Office of
Inspector General (OIG) united its audit and investigative resources to conduct a comprehensive
review of employees’ use of government contractor- issued travel and purchase cards. Although
a report has not yet been issued, preliminary findings indicate that that the agency needs to
enhance controls over its credit card program, including increasing monitoring and providing
training to cardholders on appropriate use of the cards. We intend to report our findings and
recommendations in our next semiannual report. Concurrent with this review, the Office of
Investigations (OI) continued to respond to a steady stream of referrals presenting individual
cases of travel card abuse.

In continuing its mandate to help promote systems security at the NCUA, the OIG evaluated the
project risks associated with a major human resources system migration. Although the OIG
reviewed numerous risk areas associated with the migration, we also gave attention to security
and access control risks inherent in the effort.           Among our overall findings and
recommendations, we specifically addressed the need for focused testing to ensure that the
security features of the new system functioned effectively.        The OIG continues to work
proactively with agency officials in developing sound and secure information management
systems.

This office also continued to focus its attention on the NCUA’s financial reporting as well as its
performance under the Government Performance and Results Act.

AUDIT HIGHLIGHTS

As mentioned above, the Office of Audit performed an in-depth review of NCUA’s planned
upgrade to a new comprehensive human resources system—the Comprehensive Human
Resources Integrated System (CHRIS)--owned and maintained by the General Services
Administration (GSA). The GSA likewise owned and maintained the predecessor to CHRIS
used by NCUA--the Personnel Information Resource System (PIRS). The OIG, which
contracted for technical assistance on this evaluation, analyzed whether, to what extent, and at
what cost NCUA mitigated the project risks of this major human resources upgrade. In addition,
the audit staff performed two Management Consulting Reviews, in two separate regional offices,
on the following: (1) NCUA’s Small Credit Union Program; and (2) NCUA’s Staff Appraisal
Training Cycle Process.

INVESTIGATIVE HIGHLIGHTS

During the reporting period, the OI opened twelve (12) investigations and carried three (3) cases
over from the last reporting period, of which two (2) were closed. In addition, the OI reported on
and closed two (2) of the new cases opened in this reporting period.




                                                 iii
Inspector General’s Semiannual Report                  National Credit Union Administration


The 10 new cases currently under investigation involve the following issues: (1) misuse of
government contractor- issued credit card (10 cases); and (2) employee misconduct based on
allegations of mismanagement (1 case).

During this period the OI presented training to NCUA supervisors on the role and responsibilities
of the OIG; the issue of IG independence; what types of employee misconduct should be
reported to the OIG; and how confidential information provided to the OIG is handled by our
office. The training session also emphasized to supervisors the need to ensure that employees
understand what constitutes proper use of the government contractor- issued travel card.

During this period the OI responded to a Freedom of Information Act (FOIA) request from an
attorney/reporter from American Lawyer Media. Our OIG counsel coordinated with other IG
counsels, who received the identical request, in preparing this office’s response.

FUTURE PLANS

Once we issue our final report on employee misuse of the government contractor- issued credit
and purchase cards, the OIG plans to consult closely with senior management regarding the need
to develop and implement more detailed and clearer guidelines for monitoring travel card
activity to ensure consistent application throughout the agency. Moreover, the OIG intends to
ensure that training is developed and provided to all NCUA cardholders to ensure that
cardholders are informed of their responsibilities and the disciplinary action that may be taken
for improper use of the cards.




                                                    Frank Thomas
                                                    Inspector General




                                               iv
Inspector General’s Semiannual Report                                        National Credit Union Administration


                                             TABLE OF CONTENTS


INDEX OF REPORTING                                                                                         inside
REQUIREMENTS.........................................................................................       front
                                                                                                           cover


INSPECTOR GENERAL'S MESSAGE TO CONGRESS............................                                          iii


NATIONAL CREDIT UNION ADMINISTRATION.................................                                        1


     NCUA Highlights...................................................................................      4


      Federally Insured Credit Union Highlights............................................                  6


      Legislative Highlights............................................................................     7


OFFICE OF THE INSPECTOR GENERAL...............................................                               8


AUDIT ACTIVITY......................................................................................         9


INVESTIGATIVE ACTIVITY....................................................................                  14


LEGISLATIVE AND REGULATORY REVIEWS....................................                                      16


OTHER INSPECTOR GENERAL ACTIVITIES........................................                                  17


TABLE I – REPORTS WITH QUESTIONED COSTS...............................                                      18


TABLE II – REPORTS WITH RECOMMENDATIONS                                                                     19
          THAT FUNDS BE PUT TO BETTER USE.............................


TABLE III – SUMMARY OF OIG ACTIVITY..........................................                               20
Inspector General’s Semiannual Report               National Credit Union Administration


         NATIONAL CREDIT UNION ADMINISTRATION


T
       he National Credit Union Administration (NCUA) was established as an
       independent, federal regulatory agency on March 10, 1970. The agency is
       responsible for chartering, examining, supervising, and insuring federal credit
       unions. It also insures state-chartered credit unions that have applied for insurance
and have met National Credit Union Share Insurance requirements. NCUA is funded
entirely by credit unions; it does not receive any tax dollars. As of December 31, 2001,
the NCUA was supervising and insuring 6,118 Federal credit unions and insuring 3,866
state-chartered credit unions, a total of 9,984 institutions. This represents a loss of 218
Federal and 114 state-chartered institutions since December 31, 2000, for a total loss of
332 credit unions nation-wide.

NCUA operates under the direction of a Board composed of three members. Board
members are appointed by the President and confirmed by the Senate. They serve six-
year terms. Terms are staggered, so that one term expires every two years. The Board is
responsible for the management of the National Credit Union Administration, the NCUA
Share Insurance Fund, the Central Liquidity Facility, and the Community Development
Revolving Loan Program.

The National Credit Union Administration executes its program through its central office
in Alexandria, Virginia and regional offices in Albany, New York; Alexandria, Virginia;
Atlanta, Georgia; Lisle, Illinois; Austin, Texas; and Concord, California. NCUA also
operates the Asset Management and Assistance Center (AMAC) in Austin, Texas. Please
refer to the NCUA organizational chart on page 3.

The NCUA Board adopted its 2002 budget on November 15, 2001. The final revised
2002 budget of $146,568,580 represents an increase of $6.4 million over the 2001
budget. The Full Time Equivalent (FTE) staffing authorization for 2002 is 995, a
reduction of 33 positions over the 2001 total of 1,028.



    160,000

    140,000

    120,000

    100,000

     80,000                                                     Budget
     60,000

     40,000

     20,000

         0
              1997   1998    1999    2000    2001    2002




                                             1
Inspector General’s Semiannual Report           National Credit Union Administration




             1060

             1040

             1020

             1000

              980                                                  FTEs
              960

              940

              920

              900
                    1997   1998   1999   2000    2001   2002




                                         2
Inspector General’s Semiannual Report       National Credit Union Administration


                   NCUA ORGANIZATION CHART




                                        3
Inspector General’s Semiannual Report             National Credit Union Administration



                             NCUA HIGHLIGHTS

SENATE CONFIRMS JOHNSON AND MATZ TO NCUA BOARD

The Senate confirmed, on March 20, 2002, the nominations of JoAnn Johnson and
Deborah Matz to seats on the three-member board of the National Credit Union
Administration. President George W. Bush nominated Johnson, who had been serving as
a recess appointee since January 22, 2002, to a seat on the Board on November 27, 2001.
Johnson was first elected to the Iowa Senate in 1994, and resigned her seat to accept the
NCUA recess appointment. President Bush had named Matz a recess appointee to the
NCUA Board on January 22, 2002. Before her appointment, Matz was the Executive
Officer at the Liaison Office for North America of the Food and Agriculture Organization
of the United Nations in Washington, D.C. Johnson will serve as an NCUA Board
member until August 2007, while Matz’s term expires in August 2005.

NCUA CHAIRMAN UNVEILS “ACCESS ACROSS AMERICA” PLAN

NCUA Board Chairman Dennis Dollar announced on February 26, 2002, his plan for
NCUA to partner with other federal departments and agencies to extend financial services
into underserved areas. The initiative, termed “Access Across America,” calls for the
enhancement and extension of an existing NCUA initiative to bring credit union services
to neighborhoods and communities lacking access to low-cost financial services.

NCUA’S REGULATORY FLEXIBILITY (REGFLEX) PROGRAM BECOMES
EFFECTIVE

NCUA’s RegFlex program, which permits federal credit unions with strong net worth
and consistently strong CAMEL ratings to be exempt, in whole or in part, from certain
NCUA regulations, became effective March 1, 2002.

NCUA ISSUES CONSUMER PRIVACY GUIDANCE

NCUA and seven other federal financial regulators released, on February 6, 2002, a
privacy guide for consumers to coincide with National Consumer Protection Week. The
guide, “Privacy Choices for Your Personal Financial Information,” helps consumers
make informed choices about whether to allow their personal financial information to be
shared. The publication guides consumers through the choices they face as a result of the
privacy provisions of the Gramm- Leach-Bliley Act of 1999.

NCUA REPEALS COMMUNITY ACTION PLAN (CAP) REGULATION

The NCUA repealed the community action plan (CAP) regulation on December 31, 2001,
in favor of a continued emphasis on procedural streamlining to encourage greater
extension of credit union services to the underserved. The National Community


                                           4
Inspector General’s Semiannual Report           National Credit Union Administration


Reinvestment Coalition (NCRC) is challenging in court the NCUA’s repeal of the CAP
regulation. The NCRC lawsuit alleges that NCUA failed to comply with the
Administrative Procedures Act requirements and claims that the repeal of CAP will harm
efforts to expand access to credit in low- and moderate-income communities.

COURT DISMISSES ABA CHALLENGE TO NCUA’S FIELD OF
MEMBERSHIP RULE

On November 9, 2001, the United States Court of Appeals dismissed the American
Bankers Association (ABA) suit against NCUA’s field of membership regulation issued
pursuant to the Credit Union Membership Access Act (CUMAA). The court rejected the
ABA’s argument that NCUA should count family members, pensioners, and annuitants,
as well as primary potential members, toward the 3000-member limit of a common bond
within a multiple common bond credit union.




                                          5
Inspector General’s Semiannual Report              National Credit Union Administration




FEDERALLY INSURED CREDIT UNION HIGHLIGHTS
       redit unions submit semiannual call reports (financial and operational data) to

C      NCUA. An NCUA staff assessment of the December 31, 2001, semi-annual call
       reports submitted by all federally insured credit unions found that virtually all key
       financial indicators were healthy.

KEY FINANCIAL INDICATORS REMAIN STRONG

Looking at 2001 annual statistics for major balance sheet items and key ratios shows for
the nation’s 9,984 federally insured credit unions: Assets grew 14.4 percent, up from
$438.2 to $501.4 billion; Loan to share ratio declined from 79.5 to 73.8 percent. Equity
grew 9.4 percent, up from $50.1 to $54.8 billion; Net worth to assets ratio decreased from
11.4 percent to 10.8 percent; Delinquency ratio increased from .74 to .85 percent; and
Membership increased from 77.6 to 79.3 million people.

SAVINGS ALSO INCREASED IN 2001

Savings increased 15.2 percent, up from $379.2 to $437 billion; Regular shares increased
13.8 percent, up from $131.2 to $149.3 billion; Share certificates increased 12.5 percent,
up from $105 to $118 billion; Money market shares grew 37.4 percent, up from $50.5 to
$69.5 billion; and IRA/KEOGH accounts grew 9 percent, up from $36.3 to $39.6 billion.

SLOWER LOAN GROWTH IN 2001

Lending grew 7 percent in 2001, up $301.3 to $322.3 billion. Several categories of
lending saw positive growth. Used auto loans grew 10.4 percent to $66.3 billion. The
largest category of loans, first mortgage real estate loans grew 16.7 percent to $89.1
billion. New auto loans declined 0.7 percent to $60.2 billion.




                                            6
Inspector General’s Semiannual Report              National Credit Union Administration


                      LEGISLATIVE HIGHLIGHTS




PRESIDENT BUSH SIGNS BILL TARGETING TERRORISM

President Bush signed a counter-terrorism/anti- money laundering bill on October 26,
2001, that gives law enforcement authorities added investigative powers in their efforts to
thwart money laundering and the funding of terrorist activities. The new law, known as
the 2001 Patriot Act, was enacted in response to terrorist attacks on the World Trade
Center and the Pentagon. The Act includes provisions making it more difficult to move
large amounts of cash across U.S. borders undetected, and requires improved rules on the
ID verification of persons conducting transactions or opening new accounts at United
States financial institutions.

OFFICE OF GOVERNMENT ETHICS PUBLISHES FINAL RULE CREATING
NEW FINANCIAL INTEREST EXEMPTIONS

On March 19, 2002, the Office of Government Ethics (OGE) published a final rule
amending its existing regulation that exempts certain financial interests as being too
remote or inconsequential to affect the integrity of the services of employees, under 18
U.S.C. § 208(b)(2). The amendments create a new exemption for sector mutual funds;
raise the de minimis exemption for matters affecting interests in securities from $5,000 to
$15,000; and creates an exemption that permits an employee to act in certain particular
matters that affect an entity in which the employee owns securities, where the entity is
not a party to the matter.




                                            7
Inspector General’s Semiannual Report           National Credit Union Administration


             OFFICE OF THE INSPECTOR GENERAL


T     he Office of the Inspector General was established at the NCUA in 1989 under the
      authority of the Inspector General Act of 1978, as amended in 1988. The staff
      consists of the Inspector General, a Deputy Inspector General, an Assistant
Inspector General for Investigations/Counsel, a Senior Special Agent, two Senior
Auditors, a Senior Information Technology Auditor and an Office Administrator.

The Inspector General reports to, and is under the general supervision of, the NCUA
Board. The Inspector General is responsible for:

1. Conducting, supervising, and coordinating audits and investigations of all NCUA
   programs and operations;

2. Reviewing policies and procedures to ensure efficient and economic operations as
   well as preventing and detecting fraud, waste, and abuse;

3. Reviewing existing and proposed legislation and regulations to evaluate their impact
   on the economic and efficient administration of agency programs; and

4. Keeping the NCUA Board and the Congress apprised of significant findings and
   recommendations.




                                          8
Inspector General’s Semiannual Report             National Credit Union Administration



                               AUDIT ACTIVITY

AUDIT REPORTS ISSUED


Management Consulting Report Region VI: Small Credit Union Program
OIG-02-01 January 15, 2002

This engagement involved providing assistance to Region VI in determining the
effectiveness of the regional Small Credit Union Program (SCUP). Our review objective
was to evaluate the current process in providing assistance to small credit unions and to
provide suggestions for process improvement. The review scope included SCUP activity
in Region VI for the years 2000 and 2001.

We found that overall the SCUP is working well in Region VI. The Region is meeting at
least the minimum SCUP requirements and agency goals and plans. Region VI is
coordinating its resources to accomplish the SCUP program.

Our review was conducted during September and October 2001, and included:
• An evaluation of the relationship of the SCUP process to written staff guidance and
   training, regional goals, regional performance plan, and national strategic plan;
• Interviews of regional staff to determine and evaluate the regio nal SCUP process,
   quality control effort, and effectiveness of effort; and
• An evaluation of a sample of SCUP contact documentation and reports to evaluate the
   effectiveness and efficiency of the process.

Our observations resulted in three suggestions to improve the SCUP process in Region
VI.

Management Consulting Report Region IV: Staff Appraisal Training Cycle Process
OIG-02-02 January 30, 2002

This engagement involved providing assistance to Region IV in determining the
effectiveness of the regiona l appraisal and training cycle including employee appraisal,
Individual Development Plan (IDP), and training cycle process for staff grades CU-11
through CU-16. Our overall review objectives were to answer the following questions:
Are performance weaknesses identified through the appraisal process? Are the
weaknesses addressed in the subsequent IDP? Was training received to address identified
weaknesses? Did identified training result in improved performance in succeeding
appraisals? Our review was intended to provide suggestions for process improvement.
The review scope included the review of employee appraisals, IDPs, and training
received in Region IV for the years 1998 through 2001.




                                           9
Inspector General’s Semiannual Report              National Credit Union Administration


We found that overall the appraisal and training cycle process (process) is working well
in Region IV. Written regional and national guidance regarding the process is adequate
to ensure accountability, monitoring, timely staff appraisals, identification of training
needs, and training attendance addressing any noted weaknesses. We observed that
supervisors are taking seriously their responsibility to fairly appraise their employees and
develop training opportunities for staff. Also, there is an effort to ensure that staff
receives at least two training experiences per year. We observed that most of the training
was routine professional in- house training with a limited number of developmental
training opportunities, including training for supervisors and outstanding staff.

Our review was conducted during October and November 2001, and included:
• An evaluation of the relationship of the appraisal, Individual Development Plan
   (IDP), and training received processes to written staff guidance; and
• The review of a sample of staff appraisals, IDPs, and training received to evaluate the
   effectiveness of the processes.

Our observations resulted in 7 suggestions to improve the appraisal, IDP, and training
received process.

Evaluation of Project Risks Associated with Upgrade to Comprehensive Human
Resources Integrated System (CHRIS) OIG-02-03 March 7, 2002

We reviewed NCUA’s planned upgrade to a new comprehensive human resources
system. Until very recently, NCUA utilized the General Services Administration’s
(GSA) Personnel Information Resource System (PIRS). NCUA entered into an
interagency agreement with GSA for the migration from PIRS to CHRIS.
Implementation was scheduled to take place by the end of February 2002. Other than
GSA, NCUA is the first government agency to implement a customized version of
CHRIS.

The purpose of our review was to determine whether NCUA mitigated the project risks of
a major HR system upgrade by performing appropriate analysis, planning, and
monitoring. We contracted with Urbach Kahn & Werlin Advisors, Inc. to provide
technical assistance. Our review was performed from October 31, 2001, through
January 15, 2002.

The focus of this review was to glean reasonable assurance regarding the design and
effectiveness of controls over systems and procedures. Our review identified several
system migration weaknesses. We concluded that these weaknesses could lead to overall
increased project risk, NCUA needs/requirements not being met, the planned
implementation timeframe not being met, increased security and system access risks, and
expanding costs.

Our report offered eight recommendations to help NCUA mitigate identified project
risks:




                                            10
Inspector General’s Semiannual Report             National Credit Union Administration


   •   Ensure that a structured process is in place for the development and acquisition of
       third party systems.
   •   Require active involvement on the part of the Office of the Chief Information
       Officer (OCIO) regarding the technical aspects of the evaluation process.
   •   Prepare Statements of Work that include specific description of deliverables, and
       provide for reasonable acceptance testing.
   •   Reevaluate the cost/benefits of CHRIS versus existing Commercial off the shelf
       (COTS) packages now available.
   •   Implement a systems development lifecycle (SDLC) methodology that includes
       the role of key players who may be involved in the development and
       implementation processes.
   •   Define system security and access control requirements.
   •   Define user acceptance testing needs.
   •   Retain and review CHRIS system documentation.

NCUA disagreed with most of the report’s recommendations, stating that the systems
development model should not be applied to a “government off the shelf service
contract.” NCUA further stated that the conversion project went smoothly, the risks were
mitigated, NCUA’s needs were met, and the implementation was achieved. We agreed
that a formal systems development lifecycle methodology might not be appropriate for
every SDLC project. However, when committing to SDLC projects, NCUA management
should quantify the risk to NCUA and assign an amount of SDLC structure that is
required based on the level of risk. We also are pleased that the conversion was
successful. However, we maintain that NCUA should not rely wholly on verbal
assurances from third-party vendors, even if the vendor in question is a large Federal
agency. We believe it is incumbent upon NCUA management to achieve an appropriate
level of assurance in order to minimize the overall risk to NCUA. In this particular
instance we simply disagree on what constituted an appropriate level of assurance.

NCUA Financial Statement Audits, dated March 31, 2002

Our contract accounting firm, Deloitte & Touche, issued opinions on the 2001 financial
statements of the National Credit Union Administration Operating Fund, National Credit
Union Share Insurance Fund, the Central Liquidity Facility, and the Community
Development Revolving Loan Program. The auditors found that the financial statements
presented fairly the financial position of the agency’s funds as of December 31, 2001.
The firm issued its opinions on February 22, 2002.

The NCUA Operating Fund (OIG-02-04) was established as a revolving fund managed
by the NCUA Board for the purpose of providing administration and service to the
federal credit union system. The auditors issued an unqualified opinion on the
Operating Fund’s financial statements. The Funds total assets for 2001 were $57.2
million, up from $53.4 million in 2000.

The National Credit Union Share Insurance Fund (OIG-02-05) was established as a
revolving fund managed by the NCUA Board to insure member share deposits in all


                                           11
Inspector General’s Semiannual Report             National Credit Union Administration


Federal credit unions and qualifying state credit unions up to $100,000 per shareholder
account. The auditors issued an unqualified opinion on the Share Insurance Fund’s
financial statements. The Fund’s total assets for 2001 were $5.1 billion, up from $4.7
billion in 2001.

The Central Liquidity Facility (OIG-02-06) was established as a mixed ownership
government corporation managed by the NCUA Board to improve general financial
stability by meeting the liquidity needs of credit unions. The auditors issued an
unqualified opinion on the CLF’s financial statements. The CLF’s total assets for 2001
were $985 million, up from $932 million in 2000.

The Community Development Revolving Loan Program’s (OIG-02-06) purpose is to
stimulate economic activities in the communities served by low-income credit unions.
This in turn will result in increased income, ownership and employment opportunities for
low-wealth residents and other economic growth. The auditors issued an unqualified
opinion on the Program’s financial statements. The CDRLP’s total assets for 2001 were
$13.8 million, up from $11.7 million in 2000.

The financial auditors did not find any matters considered to be material weaknesses in
their review of the Fund’s internal control structures pertinent to financial reporting.
However, during the performance of the audit, several observations and
recommendations were presented relating to internal control over financial reporting, and
certain other accounting, administrative, and operating matters. The auditors also
provided detailed observa tions with respect to Information Technology matters.


AUDITS IN PROGRESS

Management Review of the SmartPay Procurement and Travel Charge Card
Programs

We are in the process of completing a joint audit/investigative review of NCUA Visa
cardholders’ adherence to the terms of their agreement under the SmartPay program. We
are evaluating the extent of misuse of both travel and purchase cards to evaluate the
adequacy of management systems and controls to prevent abuse.

Review of NCUA Performance under the Government Performance and Results Act

The objective of this review is to evaluate NCUA's performance in meeting and reporting
on Strategic Goal 1 for 2000 and 2001: Promote a system of financially sound, well-
managed federally insured credit unions able to withstand economic volatility. The
review emphasis will be verification and validation of goal performance information
reported to the NCUA Board and outside the agency.




                                           12
Inspector General’s Semiannual Report           National Credit Union Administration


SIGNIFICANT AUDIT RECOMMENDATIONS ON WHICH CORRECTIVE
ACTION HAS NOT BEEN COMPLETED

As of March 31, 2002, there were no significant audit recommendations on reports issued
over six months ago that have not been either fully implemented or in the process of
implementation.




                                          13
Inspector General’s Semiannual Report            National Credit Union Administration



                       INVESTIGATIVE ACTIVITY
      n accordance with professional standards and guidelines established by

 I    the Department of Justice, the Office of Investigations performs
      investigations of criminal, civil, and administrative wrongdoing
      involving agency programs. Our investigative jurisdiction focuses on
activities designed to promote economy, effectiveness, and efficiency, as well
as fighting fraud, waste, and abuse in agency programs. In addition to our
proactive efforts to deter misconduct and promote integrity awareness among agenc y
employees, we investigate referrals and direct reports of employee misconduct.
Investigations may involve possible violations of regulations regarding employee
responsibilities and conduct, Federal criminal law, and other statutes and regulations
pertaining to the activities of NCUA employees. Investigative findings may lead to
criminal prosecution, civil prosecution, or administrative action.

Moreover, we receive complaints from credit union members and officials that involve
NCUA employee program responsibilities. These complaints are examined to determine
whether there is any allegation of NCUA employee misconduct. If not, the complaint is
referred to the appropriate regional office for response, or closed if contact with the
regional office ind icates that the complaint has already been appropriately handled.


                     Investigative Operations


                        Contacts/inquiries/investigations carried         3
                          forward from previous reporting period

                        Contacts initiated during reporting period        12

                        Contacts closed for lack of verifiable evidence   0
                          or referred to another office

                        Reports issued and/or matters closed              4

                        Management Implication Reports issued             0

                        Matters Remaining Open                            11




                                          14
Inspector General’s Semiannual Report              National Credit Union Administration


OFFICE OF INVESTIGATIONS ACTIVITIES


CLOSED INVESTIGATIONS

I-VI-01-04 Falsification of Work Reports, Timesheets, and Vouchers
Based on a referral, the OI investigated allegations that an NCUA Examiner falsified
work products related to the examination of credit unions and made false claims of hours
and expenses. The case was presented for prosecution and administrative Kalkines
warnings were authorized. The individual was interviewed and admitted to all of the
allegations. The employee was removed after the OIG report was issued.

I-CO-01-07 Misuse of Travel Card
The OIG investigated an allegation that an employee had misused his government
contractor- issued travel card. Investigation revealed that within a year and a half period
the employee had used his travel card for over 40 personal purchases, totaling $4,300.
The employee was suspended after the OIG report was issued.

I-CO-01-08 Misuse of Travel Card
The OIG investigated an allegation that an employee had misused his government
contractor- issued travel card. Investigation revealed that within a year and a half period,
the employee used his travel card for approximately 60 personal purchases, totaling over
$10,000. The employee was suspended after the OIG report was issued.

I-V-01-03 Sexual Harassment and Undue Influence
The OIG completed its investigation into allegations that two NCUA employees had
made inappropriate comments and gestures to an official of a credit union, and that one of
the employees had threatened the credit union Board in order to affect the removal of the
credit union President. The investigation could neither substantiate nor conclusively
disprove the allegations.

OPEN INVESTIGATIONS

During this reporting period, the OI continued its review of employee use of the
government contractor- issued credit card. The office currently has ten (10) investigations
open on this matter. The OI also has one (1) open case concerning allegations of
mismanagement.




                                            15
   Inspector General’s Semiannual Report             National Credit Union Administration



             LEGISLATIVE AND REGULATORY REVIEWS

   Section 4(a) of the Inspector General Act requires the Inspector General to review
   existing and proposed legislation and regulations relating to the programs and operations
   of NCUA and to make recommendations concerning their impact. Moreover, we
   routinely review proposed agency instructions and other policy guidance, in order to
   make recommendations concerning economy and efficiency in the administration of
   NCUA programs and operations and the prevention and detection of fraud, waste and
   abuse.

   During the reporting period, the OIG reviewed 13 items, including proposed and final
   changes to legislation and regulations, NCUA Letters to CU’s, and internal directives that
   affect NCUA operations.



            SUMMARY OF STATUTES AND REGULATIONS REVIEWED
Legislation
H.R. 2975        The USA PATRIOT Act
44 U.S.C. Ch. 35 Proposed Bill: Federal Information Security Management Act of 2002
H.R. 309         Proposed Bill: Anti- Terrorism, Anti-Hijacking, and Federal Criminal
                 Investigations’ Empowerment Act of 2001
 Regulations
                                         Title
5 CFR 2640       Exemption Amendments Under 18 U.S.C. 208(b)(2)
5 CFR 2635       Travel Reimbursement for Official Relating to Unofficial Speaking
                 Activities
12 CFR 700, 701, Final Rule:      Definitions and Technical Amendments to NCUA
712, 715, 723, Regulations
725, 790
12 CFR 722, 742  Regulatory Flexibility Program
12 CFR 705       Proposed BAM: Community Development Revolving Loan Program for
                 Credit Unions
12 CFR 701       Interim Final Rule with Request for Comments: Community Action Plan




                                              16
Inspector General’s Semiannual Report             National Credit Union Administration



                         OTHER OIG ACTIVITIES
STAFF TRAINING AND DEVELOPMENT


Inspector General (IG) Frank Thomas as well as Deputy Inspector General (Deputy IG)
William DeSarno, participated in the Financial Institutions Regulatory Committee of the
Executive Council on Integrity and Efficiency (ECIE). The Committee provides a forum
for Inspectors General of the NCUA, the Federal Reserve System, the Department of the
Treasury, the FDIC, the Federal Housing Finance Board, the Securities and Exchange
Commission, and the Farm Credit Administration to: discuss matters of mutual interest;
coordinate relevant audits, investigations, legislative, and regulatory matters; and seek
uniform approaches to handling similar issues.

Senior Auditor Dwight Engelrup attended a White Collar Crimes Seminar sponsored by
the Federal Fina ncial Institutions Examination Council (FFIEC). Senior Information
Technology Auditor Tammy Rapp attended two seminars: (1) An Overview of A-130, IT
Strategic Plans; and (2) an Information Systems Audit and Control Association (ISACA)
seminar on the Government Institutions Security Reform Act (GISRA).




                                           17
     Inspector General’s Semiannual Report               National Credit Union Administration




                                             TABLE I

                         INSPECTOR GENERAL ISSUED REPORTS
                               WITH QUESTIONED COSTS

                                                       Number of    Questioned      Unsupported
                                                        Reports       Costs            Costs

A.    For which no management decision had
      been made by the start of the reporting             0             $0               $0
      period.

B.    Which were issued during the reporting
      period.                                             0             0                0

      Subtotals (A + B)                                   0             0                0

C.    For which management decision was
      made during the reporting period.                   0             0                0

      (i) Dollar value of disallowed costs                0             0                0

      (ii) Dollar value of costs not disallowed           0             0                0

D.    For which no management decision has
      been made by the end of the reporting               0             0                0
      period.

E.    Reports for which no management
      decision was made within six months of              0             0                0
      issuance.




     Questioned costs are those costs the OIG has questioned because of alleged violations of
     laws, regulations, contracts, or other agreements; findings which at the time of the audit
     are not supported by adequate documentation; or the expenditure for the intended purpose
     is unnecessary or unreasonable.

     Unsupported costs (included in "Questioned Costs") are those costs the OIG has
     questioned because of the lack of adequate documentation at the time of the audit.




                                                  18
Inspector General’s Semiannual Report            National Credit Union Administration



                                      TABLE II

               INSPECTOR GENERAL ISSUED REPORTS
      WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                           Number of          Dollar
                                                            Reports           Value

 A.    For which no management decision had been
       made by the start of the reporting period.               0               $0

 B.    Which were issued during the reporting period.           0               0

       Subtotals (A + B)                                        0               0

 C.    For which management decision was made
       during the reporting period.                             0               0

       (i) Dollar value of recommendations agreed to
       by management.                                          N/A              0

       (ii) Dollar value of recommendations not
       agreed to by management.                                N/A              0

 D.    For which no management decision was made
       by the end of the reporting period.                      0               0

 E.    For which no management decision was made
       within six months of issuance.                           0               0


Recommendations that "Funds to be Put to Better Use" are those OIG recommendations
that funds could be used more efficiently if management took actions to reduce outlays,
de-obligate funds from programs/operations, avoid unnecessary expenditures noted in
pre-award reviews of contracts, or any other specifically identified savings.




                                          19
 Inspector General’s Semiannual Report        National Credit Union Administration



                                   TABLE III

                     SUMMARY OF OIG ACTIVITY
                OCTOBER 1, 2001 THROUGH MARCH 31, 2002

PART I – AUDIT REPORTS ISSUED
Report                                                                 Date
N umber         Title                                                  Issued
OIG-02-01       Management Consulting Report (Region VI)               1/15/02
                Small Credit Union Program
OIG-02-02       Management Consulting Report (Region IV)               1/30/02
                Staff Appraisal Training Cycle Process
OIG-02-03       Evaluation of Project Risks Associated with Upgrade to 3/07/02
                Comprehensive Human Resources Integrated System
                (CHRIS)
OIG-02-04       Financial Audit: NCUA Operating Fund                   3/31/02
OIG-02-05       Financial Audit: Share Insurance Fund                  3/31/02
OIG-02-06       Financial Audit: Central Liquidity Facility            3/31/02
OIG-02-07       Financial Audit: Community Development Revolving Loan 3/31/02
                Program
PART II – AUDITS IN PROCESS (as of September 30, 2001)
                Review of NCUA Performance under the Government Performance
                and Results Act
                Management Review of the SmartPay Procurement and Travel Charge
                Card Programs




                                         20
Inspector General’s Semiannual Report        National Credit Union Administration




                       WE WANT TO HEAR FROM YOU



                 CALL THE OIG HOTLINE




                      TOLL FREE 1-800-778-4806

                      WASHINGTON METRO AREA
                          703-518-6357
       You may call ANONYMOUSLY, or request that YOUR call be kept
                          CONFIDENTIAL




                                        21
